2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Ti

C@OCKLE

Legal Briefs

Est. 1923

Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL,

Petitioner,

Vv.
AGNES MORRISSEY-BERRU,
Respondent.

SAINT JAMES SCHOOL,
Petitioner,
Vv.

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE

ESTATE OF KRISTEN BIEL,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required
to be served have been served by Priority Mail. Packages were plainly addressed to the following:

To be filed for:
JOHN C. EASTMAN
ANTHONY T. CASO
Counsel of Record

Claremont Institute’s Center for

Constitutional Jurisprudence

SEE ATTACHED

c/o Dale E. Fowler School of Law

Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
caso@chapman.edu

Counsel for Amicus Curiae

Subscribed and sworn to before me this 10th day of February, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska

My Commission Expires Nov 24, 2020

 

 

Notary Public

39335
 
   
    
   
   
   
    
   
   

Attorneys for Petitioners

Eric Christopher Rassbach The Becket Fund for Religious Liberty 202-955-0095
Counsel of Record 1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036

erassbach@becketlaw.org

Attorneys for Respondents

Jennifer Anne Lipski JML Law, A Professional Law Corporation 818-610-8800
Counsel of Record 5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367

jennifer@jmllaw.com

 
